TN

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Pax: (402) 342-4850
No. 20-1474

JOSEPH COLONE,
Petitioner,
v.
‘THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA, FOR THE COUNTY OF SAN FRANCISCO,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2997 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

A. HOTARY-State of Rebraska Zz 2 Z J,
RENEE J. GOSS 0. Onda “

fy Comm. Exp. Soptembar 6, 2023
Notary Public / Affiant

 

41341
